NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL



                          REVIEW OF NCUA’S
            OVERSIGHT OF INDIRECT LENDING PROGRAMS



                         Report #OIG-06-07
                         September 27, 2006




                          William A. DeSarno
                          Inspector General

 Released By:                                  Auditor-in-Charge:



 James W. Hagen                                Charles E. Funderburk, CPA
 Assistant Inspector General for Audits        Senior Auditor
                            TABLE OF CONTENTS


                                                         Page

EXECUTIVE SUMMARY                                         1

BACKGROUND                                                2

PURPOSE AND OBJECTIVES                                    4

SCOPE AND METHODOLOGY                                     4

RESULTS                                                   5

RECOMMENDATIONS                                           8

MANAGEMENT RESPONSE                                       9

APPENDIX A – Sample Methodology                           11

APPENDIX B - Sample 1 Statistical Results                 13

APPENDIX C – Sample 2 Statistical Results                 16

APPENDIX D – Sample 3 Statistical Results                 17

APPENDIX E – NCUA Examiner’s Guide                        18

APPENDIX F – Additional NCUA Indirect Lending Guidance    19
                            EXECUTIVE SUMMARY

The National Credit Union Administration (NCUA) has identified indirect lending as a
high risk program and the number of credit unions involved in indirect lending has been
increasing. Therefore, the NCUA Office of Inspector General (OIG) conducted a review
to assess NCUA examiner compliance with agency guidance regarding reviews of credit
union indirect lending programs.

We reviewed a judgmental sample of 36 credit unions. We concluded that with regard to
these sampled credit unions, examiners assessed the risk of indirect lending programs for
all 36. We based our conclusion upon reviews of examiners’ workpapers and analyses of
call report data and key financial ratios and trends.

A subset of indirect lending programs is indirect auto lending programs which also
outsource to third party servicers. The agency recently addressed these types of indirect
lending programs in a final rule adopted on June 22, 2006. The rule, which amends
NCUA regulations at 12 CFR Parts 701 and 741, imposes concentration limits on indirect
vehicle loans serviced by third-parties.

The OIG also assessed whether credit unions were accurately reporting the existence of
indirect lending programs to NCUA. We found a need to improve internal controls over
5300 call report data, specifically as it relates to indirect lending programs. The OIG has
made two recommendations that should result in improved internal controls over 5300
call report data.




                                             1
                                   BACKGROUND
Indirect lending is an arrangement where a credit union contracts with a merchant to
originate loans at the point of sale (e.g. an auto dealer). Indirect lending is considered a
higher risk lending activity that exposes credit unions to a range of risks including credit,
interest rate, liquidity, transaction, compliance, strategic, and reputation. According to
NCUA’s June 30, 2005 Risk Trends Report, “there is a potential risk for individual
institutions involved in indirect loan programs if the program is not properly managed,
especially with third party sub-prime auto loans.”

According to NCUA call report data, 18.7% of federally insured credit unions had
indirect lending programs on June 20, 2005. This was an increase from June 30, 2004,
where 15.5% of credit unions had indirect lending programs. Moreover, as of June 30,
2005, there were 4,045,704 indirect loans outstanding at credit unions, amounting to $58
billion. Finally, as of June 30, 2005, indirect lending represented 13.3% of the total
amount of credit union loan outstanding balances.

The following chart compares credit unions with indirect lending activity to the universe
of credit unions

  5300 Date         June 2004      Sept. 2004      Dec. 2004     March 2005        June 2005
 # Total CUs            9,210           9,113          9,014          8,945            8,871

 # CUs with             1,430           1,425           1,524           1,554           1,660
   Indirect
    Loans
 % CUs with             15.5%          15.6%           16.9%           17.4%           18.7%
   Indirect
    Loans
# Total Loans      40,835,743     41,222,649      41,424,896      41,410,875      41,672,215

  # Indirect        3,173,557       3,512,036      3,669,218       3,727,025       4,045,704
    Loans
  % Number               7.8%            8.5%           8.9%            9.0%            9.7%
Indirect/Total.
  $ Amount        $394,881M       $406,305M       $414,252M       $418,976M      $434,503M
 Total Loans
  $ Amount         $45,149M        $49,716M        $51,539M        $53,030M        $57,952M
   Indirect
    Loans
  % Amount              11.4%          12.2%           12.4%           12.7%           13.3%
Indirect/Total




                                              2
The typical credit union has an average indirect loan portfolio balance of $35 million; has
20% or less in indirect loans to total loans; and has an average indirect loan outstanding
balance between $10,000 and $20,000 (See Appendix B tables B-1, B-2 and B-3).



                        Agency Issued Indirect Lending Guidance

NCUA has issued examiner guidance addressing the risks associated with indirect
lending. This guidance can be found in the NCUA Examiner’s Guide, NCUA
Instructions, NCUA Letters to Credit Unions, NCUA Supervisory Letters, and NCUA
Risk Alerts.

Chapter 10 of the NCUA Examiner’s Guide addresses examination and supervision
policy and procedures for loan reviews. Appendices A and D of the Examiner’s Guide
address indirect lending more specifically. We have included key elements of that
examiner guidance in Appendix E of this report.

Further, to assist credit unions in their oversight of indirect loans, NCUA also issued
several letters of guidance dating back to 2001. See Appendix F for specific examples.

All federally insured credit unions submit 5300 quarterly call reports to NCUA. These
quarterly call reports capture the number and amount of indirect loans outstanding,
among other data. During each examination, examiners must verify the accuracy of the
5300 quarterly call report. The risk focused program places heavy reliance on the
accuracy of the data in the call report. Inaccuracies in the call report may result in
misleading evaluation of data.

Once credit unions submit call report data, NCUA examiners analyze it. The information
is then compiled into reports for examiners to consider when deciding which areas pose
the most risk within the credit union. Examiners complete the 5300 review questionnaire
during the preliminary phase of an examination and then focus their review on the
internal controls over the call report. Examiners also use the call report data to monitor
credit unions between examinations.




                                             3
                         PURPOSE AND OBJECTIVES
Since 2001, NCUA guidance has consistently treated indirect lending as a high risk
program. All seven of the risk based exam risks are identified as inherent risks in indirect
lending programs. The number and percentage of credit unions involved in indirect
lending is increasing, as well as the amount of indirect loans outstanding. Consequently,
indirect lending is an inherently risky program that requires increased oversight and due
diligence.

Because of the growing risk posed by indirect lending to the share insurance fund, the
NCUA OIG conducted a review to assess NCUA examiner compliance with agency
guidance regarding reviews of credit union indirect lending programs. In addition, we
assessed whether credit unions were accurately reporting the existence of indirect lending
programs to NCUA.


                        SCOPE AND METHODOLOGY
Our review included indirect lending programs as of June 30, 2005. For trend and
comparison purposes we analyzed indirect lending programs from June 30, 2004 to June
30, 2005.

In order to meet our objective, we performed the following:
       • Interviewed NCUA personnel
       • Reviewed NCUA indirect lending guidance
       • Analyzed 5300 call report data
       • Compared 5300 call report data to the Indirect Automobile Lending
            Assessment data gathered by NCUA (IALA)
       • Reviewed examination and/or supervision contact indirect lending supporting
            documentation
       • Reviewed a stratified sample of credit unions with indirect lending programs
            (See Appendix A)
       • Reviewed a sample of 5300 call report data to IALA data (See Appendix A)
       • Reviewed a stratified random sample of credit unions with “large” increases
            in loans (See Appendix A)

This engagement was performed in accordance with Generally Accepted Government
Auditing Standards.




                                             4
                                        RESULTS
                              Credit Unions Assessed for Risk

We concluded that examiners are assessing the risk of indirect lending programs, as of
June 30, 2005, for the 36 sampled credit unions that we reviewed. We based this
conclusion upon our review of the examiners’ workpapers relating to indirect lending,
analysis of 5300 data, and analysis of key financial ratios and trends. We compared these
reviews and analyses to NCUA indirect lending guidance within the scope of a risk
focused examination program. Our sample showed comparable CAMEL ratings among
all Federally Insured Credit Unions (FICUs) and comparable Return On Assets ratios
compared to similar credit unions with indirect lending programs (peer group credit
unions). However, our sample showed higher delinquency and charge-off ratios
compared to peer ratios (See Appendix B tables B-5, B-6 and B-7). An analysis of call
report data for all credit unions with indirect lending programs, as of June 30, 2005,
indicated that credit unions with indirect lending programs had lower delinquency and
comparable charge-off ratios compared to credit unions that did not have indirect lending
programs.

                         FICU with Indirect         FICUs with no            Total FICUs
                             Lending               Indirect Lending
Delinquency Ratio             .59%                       .74%                    .64%
Charge-off Ratio              .31%                       .29%                    .30%

We reviewed three stratified samples of credit unions reported as having indirect lending
programs. Our samples included both federal and state chartered credit unions and
included credit unions from all five regions (See Appendix B tables B-4 and B-5). These
three stratified samples included: (1) credit unions with the largest dollar amount of
indirect loans; (2) credit unions with the highest percentage of indirect loans to total
loans; and (3) credit unions with the highest average dollar amount per indirect loan as
reported on June 30, 2005 call reports.

In the first stratified sample, thirteen of the fifteen credit unions sampled with the largest
dollar amount of indirect loans had their indirect lending program risks assessed
reasonably well by examiners. One credit union had, in our opinion, a minimal
assessment of the indirect lending program and one credit union’s indirect lending
program had not been assessed since it was converting to a mutual savings bank. These
credit unions had at least $100 million in indirect loans as of June 30, 2005.

In the second sample, all ten of the sampled credit unions with the highest percentage of
indirect loans to total loans had their indirect lending programs assessed reasonably well
by examiners. These credit unions had at least 50% of their total loans in indirect lending
programs.




                                               5
Finally, with regard to the third stratified sample, examiners assessed reasonably well the
indirect lending programs of five of the eleven sampled credit unions with the highest
indirect loan average balances. Examiners did not review one credit union’s indirect
lending program because its indirect lending portfolio was only 1.7% of the total loan
portfolio. The remaining five credit unions were discovered to have errors in reporting
their indirect lending program on the June 30, 2005 call report. The eleven credit unions
in this sample had an indirect loan average balance of at least $30,000.

                                    NCUA Regulation

A subset of indirect lending programs is indirect lending programs which also outsource
to third party vendors. The NCUA Board adopted a final rule, on June 22, 2006,
addressing these types of indirect lending programs. The final rule revised the existing
regulation to impose concentration limits on indirect vehicle loans serviced by third-
parties.

                               5300 Quarterly Call Reports

There is a need to improve internal controls over 5300 call report data, specifically as it
relates to indirect lending programs. We sampled 30 credit unions that had large
increases in the number of loans reported on their June 2005 call report expecting to find
indirect lending activity. We found no indication that any of these 30 credit unions had
indirect lending programs. However, 17 of the 30 had errors on their call reports in the
number of total loans field. Most of these errors represented a material amount. For
instance, one credit union’s 5300 reported 895 loans, where the actual number was only
358. Another credit union reported 2249 loans on its call report, when the reported loans
were approximately 1100. Regional staff could not explain the reason for the increase in
loans reported for four of the thirty credit unions. Nor did a cursory review of examiner
workpapers for these four credit unions explain the reason for the increases in total loans.
Nine of the thirty credit unions had explanations reflected in examiner workpapers, for
the increase in the number of loans, but none of the explanations pointed to indirect
lending programs.

Our comparison of June 30, 2005 call reports with May 31, 2005 Indirect Automobile
Lending Assessment (IALA) data revealed that 180 credit unions reported the existence
of indirect lending programs inconsistently between the two reports. Seventy-seven
credit unions reported indirect lending on their call report but did not report indirect
lending by means of the IALA contact. One hundred three credit unions reported indirect
lending by means of the IALA contact but not on their June 30, 2005 call reports. We
sampled 45 of the 103 credit unions. Thirty one of the forty five credit unions had call
report errors (See Appendix C). In other words, they failed to report indirect lending
loans (both number of loans and amount of loans outstanding) on their call report. Seven
of the credit unions had errors on their IALA contact information. While the credit
unions did not have any outstanding indirect loans, examiners reported that credit unions
had indirect lending programs through this contact, and an additional seven credit unions
were inactive as of June 30, 2005 thereby explaining the reporting discrepancy.




                                             6
Examiners review quarterly call reports and Financial Performance Reports (FPRs) as
part of their off-site monitoring of credit unions. In addition, examiners must verify call
report data at each examination and complete the 5300 questionnaire which contains
some questions regarding loan data. The risk focused program places heavy reliance on
the accuracy of the data in the call report. The 5300, which includes indirect lending
data, is used for credit union analysis. If there is a material increase or decrease in
reported total number of loans without a corresponding increase in the dollar amount of
outstanding loans on the 5300, this will be reflected by a material change on the FPR in
the “average loan balance”. We noted this scenario on several credit union FPRs in our
samples. The effect of material inaccuracies in the call report may result in misleading
evaluation of data and could increase the risk in potentially all seven risk areas.

There are some 5300 report edit checks which are application specific on particular fields
that have set parameters specified by NCUA. These edit checks primarily relate to
reasonableness checks (e.g. number of loans does not exceed amount of loans).
However, there were no edit checks on indirect lending program “existence” (number and
dollar amount) as of June 30, 2005 call reporting. NCUA incorporated two additional
edit checks in the September 30, 2005 call reports:
     • If the dollar amount for indirect loans is 75% greater or less than reported from
         the prior call report and the increase or decrease is at least $2,500,000 then a
         warning is generated and forwarded to the credit union and examiner for review;
         and
     • If the number for outstanding indirect loans is 75% greater or less than reported
         from the prior call report and the increase or decrease is at least 2,500 account
         then a warning is generated and forwarded to the credit union and examiner for
         review.
 These two edit checks were a good addition to the call reporting system. However, they
 will not capture reporting errors under 75% or the dollar amount/number of account
 thresholds. In addition they will not capture errors when there is a non-corresponding
 increase/decrease in the number of loans compared to the dollar amount of loans. Trend
 reasonableness edit checks or controls also did not exist for the total number of loans at
 June 30, 2005. The NCUA Office of Examination and Insurance is considering
 incorporating additional edit checks regarding the number of indirect loans with changes
 in the dollar amount.




                                             7
                             RECOMMENDATION 1
To further strengthen internal controls over the reporting of credit union indirect loans,
NCUA should implement trend reasonableness edit checks or controls to cover the total
number of loans.

Management Response: Agree, The Office of Examination and Insurance (E&I) agrees
with the need for reasonableness edit checks relating to indirect lending within the 5300
Call Report system. Over the last several years since E&I began collecting call report
data on indirect lending, the office has added and/or modified edit checks to help ensure
the system contains accurate information for trend analysis. E&I has also modified the
actual indirect lending data collected as industry trends have warranted such action.

Since June 30, 2005, E&I has implemented additional edit checks relating to delinquent
indirect loans and charged-off indirect loans. They will continue to evaluate the need for
any reasonableness edits for indirect lending trends in the 5300 Call Report system,
particularly relating to the total number of loans.

OIG Response: Concur with agency response.


                             RECOMMENDATION 2
NCUA should re-emphasize to examiners the importance of validating the data reported
on quarterly call reports.

Management Response: Agree, Office of Examination and Insurance (E&I) agrees with
re-emphasizing the importance of validating data contained in quarterly 5300 call reports.
These reports are a vital element of the risk-focused examination program and assist in
appropriately allocating resources to areas of higher risk within the credit union industry.
E&I will continue to emphasize to examiners the importance of validating 5300 Call
Report data via written memorandums, as well as face-to-face discussion during
upcoming group meetings.

OIG Response: Concur with agency response.




                                             8
                        MANAGEMENT RESPONSE



                                                                      EI/MJB:mjb

Sent via E-Mail



TO:           William DeSarno, Inspector General
              Office of Inspector General

FROM:         Director David M. Marquis
              Office of Examination and Insurance

SUBJECT:      Comments on Indirect Lending Audit Report

DATE:         September 21, 2006

This memorandum responds to your request for comments on the report, titled,
Indirect Lending Audit (IG Audit Report #OIG-06-05). My office appreciates the
opportunity to comment on the report and we agree with the two
recommendations contained in it. We offer the following comments regarding the
specific recommendations:

OIG Report Recommendation #1
To further strengthen internal controls over the reporting of credit union indirect
loans, NCUA should implement trend reasonableness edit checks or controls to
cover the total number of loans.

Office of Examination & Insurance Response:
My office agrees with the need for reasonableness edit checks relating to indirect
lending within the 5300 Call Report system. Over the last several years since we
began collecting call report data on indirect lending, we have added and/or
modified edit checks to help ensure the system contains accurate information for
trend analysis. We have also modified the actual indirect lending data collected
as industry trends have warranted such action.

Since the effective date of your review, June 30, 2005, my office has
implemented additional edit checks relating to delinquent indirect loans and
charged-off indirect loans. My office will continue to evaluate the need for any
reasonableness edits for indirect lending trends in the 5300 Call Report system,
particularly relating to the total number of loans.




                                         9
OIG Report Recommendation #2
NCUA should re-emphasize to examiners the importance of validating the data
reported on quarterly call reports.

Office of Examination & Insurance Response:
We agree with re-emphasizing the importance of validating data contained in
quarterly 5300 call reports. These reports are a vital element of our risk-focused
examination program and assist us in appropriately allocating resources to areas
of higher risk within the credit union industry. We will continue to emphasize to
our examiners the importance of validating 5300 Call Report data via written
memorandums, as well as face-to-face discussion during upcoming group
meetings.

Again, thank you for the opportunity to comment on this report. If you have any
questions, please do not hesitate to contact my office.

cc: Office of the Executive Director


s:\stafffolders\mjb\indirectlending\igmemo-responsetoauditreportv2.doc




                                        10
                APPENDIX A – SAMPLE METHODOLOGY

SAMPLE 1

       Purpose: Assess NCUA examiner compliance with agency guidance regarding
reviews of credit union indirect lending programs.

        Scope: Sample of 36 credit unions with indirect lending programs as identified
per the 6/30/05 call report (5300) stratified as follows:
        a. Top 15 credit unions with the largest dollar amount of indirect loans
        b. Top 10 credit unions with the highest percentage of indirect loans to total loans
        c. Top 11 credit unions with the highest indirect loan average

      Methodology: Reviewed exam/supervision supporting documentation for
examiner due diligence reviews
   • Reviewed 110 contacts
   • Reviewed FPRs as of 6/30/05
   • Requested regions to supply/cite examiner due diligence supporting
      documentation
   • Reviewed AIRES workpapers

SAMPLE 2

       Purpose: Determine if indirect lending programs are reported to NCUA

        Scope: Indirect lending programs identified by credit unions on the 6/30/05 call
report and/or reported on the 5/31/05 IALA data.

        Methodology: Compared indirect lending programs identified by credit unions on
the 6/30/05 call report to credit unions with indirect lending programs identified on the
5/31/05 IALA data. Sampled 45 credit unions reported as having indirect lending
programs on the IALA data, but did not report having indirect lending programs on the
6/30/05 call report. Reviewed select AIRES workpapers and 110 contact information for
the 45 sampled credit unions. Requested regional management to explain the reporting
discrepancies between the call report and IALA report.

SAMPLE 3

       Purpose: Determine if indirect lending programs are reported to NCUA

       Scope: Credit unions with large increases in number of loans as reported on the
6/30/05 call report. Sampled 30 credit unions with 20% more increase in loans from
6/30/04 to 6/30/05.




                                            11
       Methodology: Reviewed select AIRES workpapers of stratified (percentage
increase of loans strata) randomly selected credit unions. Sample selection by strata:

 % Increase in Total Loans     Number of CUs - Universe        Number of CUs – sampled
         > 100%                          126                             10
         51 – 100                        142                             10
          26 – 50                        193                              5
          20 – 25                        141                              5
           Total                         602                             30




                                            12
          APPENDIX B – SAMPLE 1 STATISTICAL RESULTS
SAMPLE 1

                                     Table B1
Comparison of universe to sample (sample 1a) credit unions for Dollar Amount of
Indirect Loans, as of June 30, 2005:

$ Amount of Indirect Loans              # CUs - Universe                # CUs - Sample
$ 1 Billion +                                          2                             2
$500 Million – $1 Billion                              9                             9
$100 Million - $500 Million                          133                             4
$50 Million - $100 Million                           126
$1 Million - $50 Million                          1,049
$1 - $1 Million                                      341
TOTAL                                              1,660                               15


                                     Table B2
Comparison of universe to sample (sample 1b) credit unions for Percentage of Dollar
Amount Indirect Loans to Dollar Amount Total Loans, as of June 30, 2005:

% Amount of Indirect                    # CUs - Universe                # CUs - Sample
Loans to Total Loans
75 - 100%                                               4                              4
50 – 75%                                               78                              6
30 – 50%                                              272
20 – 30%                                              227
10 – 20%                                              354
1 – 10%                                               725
TOTAL                                               1,660                              10


                                     Table B3
Comparison of universe to sample (sample 1c) credit unions for Indirect Loan Average
Amount, as of June 30, 2005:

Average Indirect Loan                   # CUs - Universe                # CUs - Sample
$200,000 +                                             2                             2
$100,000 - $200,000                                    5                             5
$30,000 - $100,000                                    19                             4
$20,000 - $30,000                                    131
$10,000 - $20,000                                  1202
$1 - $10,000                                         301
TOTAL                                              1,660                               11




                                          13
                                         Table B4
Sample (sample 1) selection by region:

                       1a. Dollar Amount        1b. Indirect Loan       1c. Indirect Loan
                         Indirect Loans            Percentage                Average
Region 1                        0                       1                       4
Region 2                        0                       1                       4
Region 3                        4                       2                       1
Region 4                        4                       2                       1
Region 5                        7                       4                       1
Totals                         15                      10                      11


                                      Table B5
Return on Asset (ROA) ratios for sampled (sample 1) credit unions compared to peer
ratios, as of June 30, 2005:

ROA           Higher         Equivalent      Lower           Negative        Total
FCUs          7              3               4               0               14
FISCUs        10             0               10              2               22
Total         17             3               14              2               36


                                       Table B6
Delinquency and Charge-Off ratios for sampled (sample 1) credit unions compared to
peer ratios, as of June 30, 2005:

Delinquency      Higher            Equivalent          Lower              Total
FCUs             9                 1                   4                  14
FISCUs           8                 5                   9                  22
Total            17                6                   13                 36

Charge-offs      Higher            Equivalent          Lower              Total
FCUs             5                 4                   5                  14
FISCUs           10                7                   5                  22
Total            15                11                  10                 36




                                           14
                                   Table B7
Composite CAMEL ratings for sampled (sample 1) credit unions, as of June 30, 2005:

CAMEL         1              2             3              4/5            Total
FCUs          6              8             0              0              14
FISCUs        8              11            3              0              22
Total         14             19            3              0              36


Comparison CAMEL ratings of sample to universe, as of June 30, 2005:

                    CAMEL 1/2           CAMEL 3         CAMEL 4/5              Total
Agency                 94.22%             4.80%             .98%            100.00%
Sample                 91.67%             8.33%            0.00%            100.00%




                                         15
           APPENDIX C – SAMPLE 2 STATISTICAL RESULTS

SAMPLE 2

                                        Table C1
Comparison of universe to sample, by region, for inconsistent reporting of credit unions
with indirect lending programs at June 30, 2005:

                    Universe –         Sample –          Universe –          Sample –
                  Reported IALA      Reported IALA      Reported 5300      Reported 5300
                   Not Reported       Not Reported      Not Reported       Not Reported
                       5300               5300             IALA               IALA
Region 1                19                 12                12                  0
Region 2                 7                  1                15                  0
Region 3                15                 3                 15                  0
Region 4                20                 8                 27                  0
Region 5                25                 14                 8                  0
Inactive                17                  7                 0                  0
Total                  103                 45                77                  0


                                        Table C2
Comparison of universe to sample, by asset size, for inconsistent reporting of credit
unions with indirect lending programs at June 30. 2005:

Credit Union        Universe –         Sample –          Universe –          Sample –
Assets            Reported IALA      Reported IALA      Reported 5300      Reported 5300
                   Not Reported       Not Reported      Not Reported       Not Reported
                       5300               5300             IALA               IALA
$ 1 Billion +            2                 0                  1                  0
$100-999 Mil            15                  9                25                  0
$10-99 Mil              57                 26                45                  0
$10 Mil -               12                  3                 6                  0
Inactive                17                  7                 0                  0
Total                  103                 45                77                  0




                                            16
           APPENDIX D – SAMPLE 3 STATISTICAL RESULTS

SAMPLE 3

                                       Table D1
Comparison of universe to sample for percentage increase in the number of total loans for
credit unions, as of June 30, 2005:

 % Increase in Total Loans      Number of CUs - Universe        Number of CUs – sampled
         > 100%                           126                             10
         51 – 100                         142                             10
          26 – 50                         193                              5
          20 – 25                         141                              5
           Total                          602                             30


                                        Table D2
Sample selection, by region, for percentage increase in the number of total loans, as of
June 30, 2005:

                       > 100%            51-100%             26-50%             20-25%
Region 1                   1                2                   0                  1
Region 2                   3                3                   1                  0
Region 3                   0                2                   0                  2
Region 4                   4                3                   4                  2
Region 5                   2                0                   0                  0
Total                     10                10                  5                  5


                                         Table D3
Sample selection, by asset size, for percentage increase in the number of total loans, as of
June 30, 2005:

                       > 100%            51-100%             26-50%             20-25%
$ 1 Billion +             0                 0                   0                  0
$100-999 Mil               0                0                   0                  0
$10-99 Mil                1                 2                   2                  3
$10 Mil -                 9                 8                   3                  2
Total                     10                10                  5                  5




                                             17
               APPENDIX E - NCUA EXAMINER’S GUIDE
                CHAPTER 10 – LOANS—GENERAL LOAN REVIEW

Part 1 of Chapter 10 discusses general loan reviews. The examiner should:
    • Evaluate management’s ability to identify and manage risk
    • Evaluate loan portfolio quality and related risks
    • Evaluate lending standards and controls
    • Determine adequacy of lending program plans
    • Assess financial capacity to conduct lending safely
    • Analyze the loan portfolio’s performance for profitability, delinquency and losses
    • Consider management’s response to adverse performance trends
    • Determine effectiveness over consumer protection compliance risks
    • Determine effectiveness of internal loan grading system

Part 2 of Chapter 10 discusses credit risk, delinquency and charge-offs. The examiner
should:
    • Determine loan portfolio credit risk
    • Determine accuracy and timeliness of delinquency reports
    • Determine collection policies and procedures are adequate
    • Determine collection efforts are adequate
    • Determine reasonableness of extension and refinancing polices and procedures
    • Determine reasonableness of charge-off policy

Appendix A of Chapter 10 discusses Indirect Dealer Financing Programs (IDFP). Credit
unions should:
   • Evaluate the stability of dealerships before entering into a business relationship
   • Incorporate the IDFP into a written business plan
   • Have a sound overall lending program
   • Document management’s due diligence, include cost/benefit analysis
   • Have an asset-liability management strategy which includes the IDFP
   • Have a detailed lending policies and procedures
   • Have experienced IDFP lending management and staff
   • Have a comprehensive dealership agreement
   • Have legal opinions on the dealership agreement and consumer compliance laws
   • Have a strong internal control program
   • Have a strong collection department with vehicle repossession expertise
   • Have monitoring procedures by dealer




                                           18
   Appendix F -Additional NCUA Indirect Lending Guidance
NCUA Letter to Credit Unions 04-CU-13, Specialized Lending Activities, dated
9/22/204 was issued alerting credit unions to higher risk lending activities (sub-prime,
indirect and outsourced lending programs). It stated further that, an indirect lending
program can lead to rapid growth changing the structure and risk profile of a credit
union’s balance sheet quickly. Risks include credit, interest rate, liquidity, transaction,
compliance, strategic, and reputation. Credit unions need proper planning, experienced
staff, adequate controls and monitoring. Credit unions should periodically review
approved dealers with on-going review and monitoring of loan statistics. Credit unions
need written contracts addressing dealer compensation, credit criteria, documentation
standards, and dealer reserves.

Supervisory Letter 04-02, Specialized Lending Activities, dated 9/22/04 was issued to
examiners providing information regarding higher risk lending activities (sub-prime,
indirect, outsourced lending programs). Some credit unions are involved in sub-prime
and indirect lending in combination with outsourced lending. Examiners should
scrutinize the credit union’s ability to monitor and control higher risk lending programs.
Examiners are encouraged to determine if credit unions are doing proper due diligence
reviews prior to engaging in new or expanded specialized lending activities. Examiners
should initially evaluate a credit union’s initial planning into the new market, including
the credit union’s legal review, detailed policies and procedures, program controls,
monitoring and reporting, and staff qualifications and experience. An assessment of the
magnitude of the risk of the specific lending activity should guide an examiner’s scope
determination. Three examination questionnaires will be utilized by examiners to assist in
evaluating programs. These are indirect controls, outsourced lending and sub-prime
lending questionnaires.

NCUA Letter to Credit Unions 01-CU-20, Due Diligence Over third Party Service
Providers, issued 11/01 requested that credit union officials perform a due diligence
review prior to entering into any arrangement with a third party, including:
    • Controls – policies and procedures, staff oversight and performance monitoring
    • Planning – within business strategy and risk tolerances
    • Background checks
    • Legal review of contracts (i.e. who bears costs collateral disposition; recourse
       arrangements)
    • Financial review- review financial statements of contracting party
    • Return on Investment – projected revenue, expenses, net income and economic
       changes

NCUA Instruction 4000.3, Indirect Automobile Lending Assessment (IALA), was
issued 6/13/05 to quantify the potential systemic risk associated with outsourced, indirect,
sub-prime automobile lending and participation activity in such loans. Examiners were
instructed to perform an off-site contact and upload information by 6/27/05. Information
related to the credit union’s controls and practices regarding third party sub-prime,
indirect and participation lending.



                                             19
